              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Concerns Regarding a Non-Viable (Dead)
“Anthrax Spore” Research Project at the
Oak Ridge National Laboratory




DOE/IG-0681                             March 2005
CONCERNS REGARDING A NON-VIABLE (DEAD) “ANTHRAX
SPORE” RESEARCH PROJECT AT THE OAK RIDGE
NATIONAL LABORATORY

TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objective      1

              Observations and Conclusions    2


              DETAILS OF FINDINGS

              Background                      3

              Authorization                   3

              Security Issues                 4


              OBSERVATIONS                    6


              RECOMMENDATIONS                 7


              MANAGEMENT COMMENTS             8


              INSPECTOR COMMENTS              8


              APPENDICES

              A. Scope and Methodology       10

              B. Management Comments         11
Overview

INTRODUCTION    The Office of Inspector General (OIG) received an anonymous
AND OBJECTIVE   complaint involving an “anthrax” (Bacillus anthracis, Ames strain)
                spore research project at the Department of Energy’s (DOE) Oak
                Ridge National Laboratory (ORNL). Specifically, it was alleged
                that:

                •   A former ORNL employee who returned to ORNL as a Guest
                    Researcher used a specific laboratory and its equipment
                    without authorization to conduct research on anthrax spores;
                    and,

                •   The research with anthrax spores created a safety concern
                    because the Guest Researcher used the same equipment as
                    other laboratory workers.

                Viable (live) anthrax spores are biological pathogens that could be
                used as a weapon of mass destruction. In 2001, anthrax spores
                were disseminated through the United States postal system and
                caused illness, death, and the costly shutdown and clean-up of
                Federal and public buildings. Given the potential worker safety
                and health concerns, we notified DOE’s Office of Science (OS),
                which is the responsible program office, of the allegations. OS
                subsequently advised us that the anthrax spores were non-viable or
                “dead” spores and did not pose a safety hazard.

                OS did not address, however, whether the Guest Researcher was
                authorized to use the specific laboratory and its equipment.
                Additionally, the OIG had concerns that while not a safety hazard,
                dead anthrax spores can cause false positive results in biological
                detectors. A false positive result could cause public panic and
                unnecessary deployment of emergency response resources.

                The objectives of our inspection were to determine if:

                •   The Guest Researcher was authorized to use the specific
                    laboratory at ORNL to conduct the anthrax spore research; and,

                •   The anthrax spores were appropriately controlled and secured.

                Additionally, pursuant to the Government Performance and Results
                Act of 1993 (GPRA), we reviewed relevant performance
                measurement processes applicable to the UT-Battelle contract for
                managing and operating ORNL.



Page 1                    Concerns Regarding a Non-Viable (Dead) “Anthrax
                          Spore” Research Project at the Oak Ridge National
                          Laboratory
OBSERVATIONS      We found that the Guest Researcher was not authorized
AND CONCLUSIONS   to work on the anthrax spore project and was not authorized to
                  work in the specific laboratory at ORNL. We also found that, for
                  the anthrax spore project and certain other biological projects,
                  ORNL did not follow its Integrated Safeguards and Security
                  Management (ISSM) initiative requirement to review all projects
                  to identify and analyze safeguards and security risks/threats
                  (security reviews). Further, we found that the anthrax spores were
                  not adequately controlled and secured.

                  We also made the following observations:

                  •   Key ORNL personnel typically involved with biological agent
                      projects were not aware of the anthrax spore project, and
                      opined that the anthrax spores should have been inventoried,
                      controlled, and secured in locked storage when not in use.
                      Reviews of this and similar biological projects by key ORNL
                      officials could help ensure that safety and security are
                      adequately considered; and,

                  •   Although ORNL had a Fiscal Year (FY) 2003 performance
                      measure to demonstrate that the DOE ISSM initiative was
                      effectively implemented within the ORNL workplace, an ISSM
                      security review was not effectively integrated into the anthrax
                      spore project and certain other biological projects.




Page 2                                            Observations and Conclusions
Details of Findings

BACKGROUND            According to shipping records, 20 vials of dead anthrax spores
                      were shipped to ORNL on May 6, 2003. An ORNL Principal
                      Investigator initially received the vials and provided them to the
                      Guest Researcher. There was no requirement to log-in the vials or
                      track them for purposes of accountability and control and this was
                      not done. Also, the Guest Researcher did not securely store the
                      vials. For example, after normal working hours, some vials were
                      routinely left on a countertop in the research laboratory. In
                      addition, the Guest Researcher left other vials in an unlocked
                      refrigerator in another laboratory where research on the spores was
                      not being performed.

                      Following notification by the OIG of the allegations, ORNL moved
                      four of the 20 vials of dead anthrax spores to their Chem-Bio
                      Facility, a Biosafety Level-2 (BSL-2) facility, where the four vials
                      were logged-in and securely stored. However, during interviews
                      with the Principal Investigator for the anthrax project and the
                      manager assigned to secure the vials and conduct an internal
                      investigation, it was apparent to us that neither individual was aware
                      of the additional 16 vials of dead anthrax spores. The Guest
                      Researcher, who was on vacation when the four vials were moved,
                      subsequently retrieved the four vials and took them back to his
                      laboratory. The Guest Researcher’s retrieval of the four vials and
                      the location of the remaining 16 vials were not documented. Except
                      for the receipt of the four vials in the BSL-2 laboratory, there were
                      no physical or electronic records that identified and tracked the
                      anthrax spore vials, and no records that indicated how much of the
                      spores had been consumed during experimentation. However, based
                      upon the Guest Researcher’s memory, all the vials were eventually
                      located during our site visit.

AUTHORIZATION         We found that the Guest Researcher was not authorized to work on
                      the anthrax spore project, and was not authorized to work in the
                      specific laboratory at ORNL.

                      As part of its project authorization process, ORNL requires the
                      preparation of a “Research Safety Summary,” which identifies the
                      researchers authorized to participate on a project and the specific
                      laboratory where the research must be conducted. The document
                      also identifies any hazards associated with the project and the
                      specified laboratory.

                      The initial Research Safety Summary for the anthrax spore project
                      was reviewed by an ORNL safety group, and authorized by a



Page 3                                                              Details of Findings
                  division supervisor. The document named the researchers who
                  were authorized to work on the project and the specific laboratory
                  where the research was authorized to be conducted. We
                  determined that the document did not name the Guest Researcher
                  or the specific laboratory in question that he used to conduct some
                  of his research.

                  Following our initial notification of the allegations, ORNL
                  modified the initial Research Safety Summary to add the Guest
                  Researcher as an authorized participant in the anthrax spore
                  project. However, the document was not modified to include the
                  specific laboratory in question where the Guest Researcher had
                  conducted some of his research.

                  Also, following our initial notification of the allegations, ORNL
                  took action in accordance with its Laboratory Space Management
                  Program to determine if there were other Guest Researchers who
                  were not authorized under an appropriate Research Safety
                  Summary. ORNL later advised us that they had identified 56 other
                  researchers, including Guest Researchers, who were not authorized
                  under a Research Safety Summary to work on specific projects.
                  ORNL initiated action and added these individuals to Research
                  Safety Summaries. In our view, the failure to not accurately
                  identify individuals authorized to work on laboratory research
                  projects is a significant security concern. Therefore, we believe
                  that ORNL should continue its current efforts to strengthen its
                  Laboratory Management Program to assure that researchers at
                  ORNL are authorized to conduct assigned projects.

SECURITY ISSUES   We found that security reviews required to fully implement ISSM
                  at ORNL were not conducted for the anthrax spore project, or for
                  certain other biological projects. We believe that the lack of
                  security reviews, along with the lack of appropriate accountability
                  and control of dead forms of biological materials, such as dead
                  anthrax spores, could allow unauthorized access to and possible
                  theft of these sensitive materials.

                  DOE Policy 470.1, “Integrated Safeguards and Security
                  Management (ISSM) Policy,” requires the use of an ISSM
                  framework to systematically integrate safeguards and security into
                  management and work practices at all levels so that missions are
                  accomplished securely. OS, which oversees the Oak Ridge
                  Operations Office, including ORNL, has adopted DOE’s ISSM
                  policy. The OS policy document implementing ISSM states that
                  the purpose is “to ensure appropriate levels of protection against:


Page 4                                                          Details of Findings
         unauthorized access, theft, diversion, loss of custody or destruction
         of…[DOE]…assets and hostile acts that may cause adverse
         impacts on fundamental science, national security or the health and
         safety of DOE and contractor employees.”

         The ORNL document implementing ISSM lists five “Core
         Functions” that are fundamental actions required to effectively
         implement ISSM. One ISSM Core Function requires ORNL to
         identify and analyze the safeguards and security risks/threats
         associated with the work. The term “work” refers to any and all
         ORNL activities undertaken by members of the ORNL workforce,
         whether an employee, contractor, or guest assignee. Line
         managers must ensure that security is integrated into all on-going
         and future work activities, while first level managers are required
         to identify potential security issues or concerns and establish
         controls to eliminate shortfalls and remove any security
         vulnerabilities. Therefore, ORNL’s implementation of ISSM
         required a review of the anthrax spore project for security issues or
         concerns.

         An ORNL official said that the Principal Investigator indicated on
         the Research Safety Summary computerized checklist that there
         were no “safeguards and security considerations (e.g., controlled
         nuclear materials, nuclear non-proliferation, and precious metals)”
         involved with the research project. The ORNL official advised
         that, based upon this answer, the security portion of the Research
         Safety Summary checklist was completed. The ORNL official also
         said that there is no record of the Principal Investigator’s
         determination because the security question data entry field
         “disappears” when a negative answer to this question is provided.

         If the Principal Investigator answered “Yes” to the security
         question, he would have been directed to an ISSM checklist that
         does not require controls for biological projects unregulated by
         CDC, such as the anthrax spore project. Accordingly, we do not
         believe that the Research Safety Summary process effectively
         integrates ORNL’s ISSM Core Function requirement for security
         reviews into biological projects not regulated by CDC.

         We were also told that during an FY 2003 revision of the anthrax
         spore project Research Safety Summary, the project manager
         responsible for the anthrax spore project determined that since the
         project revision would not be introducing any new security
         interests or threats to the laboratory, an ISSM security review was
         not required. However, there is no documentation that such a
         determination regarding the revision was ever made.


Page 5                                                  Details of Findings
                Following our on-site inspection, ORNL officials advised us that
                they plan to develop and implement procedures to log-in and track
                “dead” forms of select agents by September 30, 2004, even though
                these agents are not regulated by CDC and no specific regulatory
                guidelines exist. We believe these actions would improve the
                accountability and control of the anthrax spore project. We
                contacted ORNL on March 8, 2005, to determine if the procedures
                had been implemented. We were advised that ORNL had not yet
                implemented the procedures.

OBSERVATIONS    We observed that, at the time of our field work, key ORNL
                personnel typically involved with biological projects were not
                aware of the anthrax spore project. We also observed that,
                although ORNL had an FY 2003 performance measure to
                demonstrate that the DOE ISSM initiative was effectively
                implemented within the ORNL workplace, ISSM security reviews
                were not conducted for the anthrax spore project or for other
                biological projects that were not regulated by the CDC.

Key Personnel   Key personnel such as the Institutional Biosafety Committee
                Chairman, who was responsible for reviewing all select agent
                projects, the primary Subject Matter Expert for biological select
                agents, and the Biosafety Officer, who was responsible for
                oversight of all biological projects, were not aware of the anthrax
                spore project. We noted that ORNL lacked procedures concerning
                the participation of these individuals in project reviews of
                biological agent materials that are not regulated by CDC, such as
                the dead anthrax spores.

                Each of the three key ORNL personnel advised us that even though
                projects such as the anthrax spore project, which was not regulated
                by CDC, did not require their involvement, it was their expectation
                that they would have been notified of the project for their advice
                and input. They also agreed that as a best practice, the anthrax
                spores should be inventoried, controlled, and secured in locked
                storage when not in use. The individuals acknowledged that if
                dead anthrax spores were placed in public facilities, biological
                detectors could potentially trigger a false positive, resulting in a
                costly emergency response, evacuation, and panic. We believe
                there would be a benefit to notify these key personnel of projects
                such as the dead anthrax spore project to allow them an
                opportunity to provide their input to ensure that safety and security
                issues are adequately considered. Providing notification to these
                individuals could further enhance an ORNL ISSM Core Function
                requirement to “provide feedback on adequacy of controls and
                continually improve safeguards and security management.”


Page 6                                                               Observations
Performance       Although ORNL had an FY 2003 performance measure
Measures          to demonstrate that the DOE ISSM initiative was effectively
                  implemented within the ORNL workplace, an ISSM security
                  review was not effectively integrated into the anthrax spore project
                  and certain other biological projects. ORNL, in accordance with
                  the ORNL ISSM Core Function regarding the requirement to
                  identify and analyze the safeguards and security risks/threats
                  associated with the work, is required to conduct an ISSM security
                  review regarding the anthrax spore project. We further identified a
                  category of biological projects (those biological projects that do
                  not fall under current regulatory control of CDC) that would also
                  not be subject to a security review if ORNL followed its Research
                  Safety Summary project initiation process, which was intended to
                  integrate ISSM security reviews.

                  We note that for FY 2004 and FY 2005, UT-Battelle did not have
                  an ISSM performance measure. Based on our observations, we
                  believe that a performance measure for ISSM could enhance the
                  ORNL ISSM process.

RECOMMENDATIONS   We recommend that the Manager, Oak Ridge Operations Office:

                  1. Ensure that ORNL continues efforts to strengthen its
                     Laboratory Space Management Program to assure that only
                     authorized researchers are conducting work at ORNL, and that
                     the researchers comply with applicable laboratory policies and
                     procedures;

                  2. Ensure that ORNL, in accordance with the ORNL ISSM Core
                     Function regarding the requirement to identify and analyze the
                     safeguards and security risks/threats, conducts ISSM security
                     reviews on all biological projects, including biological projects
                     not regulated by CDC;

                  3. Ensure that ORNL, in accordance with the ORNL ISSM Core
                     Function regarding feedback and continued safeguards and
                     security improvement, consider notifying key ORNL personnel
                     typically involved with biological projects of new and modified
                     biological projects, including projects that are not regulated by
                     CDC, to allow them an opportunity to provide input; and,

                  4. Determine whether a contract modification, such as an ISSM
                     performance measure, should be included in the next revision
                     of the UT-Battelle contract.




Page 7                                                          Recommendations
MANAGEMENT    In comments to our draft report, management concurred with
COMMENTS      our recommendations and indicated corrective actions are being
              taken to address our concerns. Management commented that the
              recommendations will aid ORNL’s efforts for continuous
              improvement in the cited areas of work control, security analysis,
              and feedback.

              Management also provided several general comments.
              Management opined that in no way were the materials discussed in
              the draft report representative of a violation of any established
              security requirement. Also, while management agreed that the
              Guest Researcher was not authorized to work in the laboratory
              room that was the focus of the allegation, management provided
              information to counter a comment that the Guest Researcher was
              not authorized to perform work at ORNL. Further, management
              did not believe the OIG review adhered to the process in DOE
              Order 221.3, “Establishment of Management Decisions on Office
              of Inspector General Reports.”

              Management also included, as an attachment, comments and
              documentation by ORNL. In summary, ORNL commented that
              the report does not recognize the security review embedded in the
              ORNL work control process, which requires the Principal
              Investigator to review all projects for the security impact, and that
              a security review was performed for this dead anthrax project and
              other projects. However, ORNL acknowledged that security
              reviews should be more rigorous and better documented. Although
              ORNL acknowledged that the Guest Researcher was not
              authorized to work in the laboratory in question, ORNL provided
              extensive documentation that it believed showed that the Guest
              Researcher was authorized at the time of the allegation to perform
              this same research in another laboratory room.

              Management’s comments, without the attachment provided by
              ORNL, are provided in their entirety in Appendix B.

  INSPECTOR   We found the corrective actions cited by management were
  COMMENTS    generally responsive to our recommendations. As appropriate,
              we made changes to our report to address management’s
              comments.

              We acknowledge that neither CDC nor ORNL had requirements
              regarding the controls that should be implemented for the dead
              anthrax spores. However, we disagree with management’s
              comment that the anthrax spore project was not representative of
              a violation of any established security requirement. As discussed


Page 8                               Management and Inspector Comments
         in our report, we found that ORNL’s security process under the
         ISSM initiative did not address the anthrax spore project or
         certain other biological projects. We also found that there was
         no documentation to establish that any security reviews of the
         dead anthrax spore project had been conducted by ORNL. We
         note that management concurred with our recommendation that
         ORNL, in accordance with its ISSM implementation plan,
         conduct ISSM security reviews on all biological projects,
         including those not regulated by CDC, and stated that ORNL will
         strengthen its security review of all projects.

         Also, we do not find management’s comment regarding the
         authority of the Guest Researcher to work at ORNL to be
         relevant. The focus of our review was to determine whether
         the Guest Researcher was authorized to work in a specific
         laboratory and on the anthrax spore project in question,
         recognizing that his presence at ORNL was appropriate.
         Although the documentation provided by ORNL showed that
         the Guest Researcher was authorized to work on an anthrax
         spore project, it did not show the researcher was authorized to
         work on the specific project in question.

         Further, we disagree with management’s comments concerning
         adherence by the OIG inspection to the DOE Order 221.3
         process. As noted previously, this was an allegation-based
         review and we followed appropriate policy directives in
         pursuing this matter.




Page 9                                          Inspector Comments
Appendix A

SCOPE AND     The majority of the field work for this review was completed in
METHODOLOGY   September 2004. Our review included interviews with officials
              in the DOE ORNL Site Office and at ORNL UT-Battelle. We
              reviewed ORNL policies and procedures, as well as applicable
              DOE regulations. This inspection was conducted in
              accordance with the “Quality Standards for Inspections” issued
              by the President’s Council on Integrity and Efficiency.




Page 10                                           Scope and Methodology
Appendix B




Page 11      Management Comments
                                                                      ATTACHMENT 1
                      OAK RIDGE COMMENTS
                  IG DRAFT INSPECTION REPORT
    “CONCERNS REGARDING A NON-VIABLE (DEAD) ‘ANTHRAX SPORE’
      RESEARCH PROJECT AT OAK RIDGE NATIONAL LABORATORY”

General Comments:

As stated in the draft report, non-viable anthrax spores are not regulated by the Centers
for Disease Control and Prevention and are specifically excluded from the regulatory
requirements, 42 CFR 73.5(f), including material and facility registration and inventory
controls, Institutional Biosafety Committee reviews and approvals, and material/facility
access logs. It is our opinion that in no way were the materials discussed in this draft
report a safety concern or representative of a violation of any established security
requirement. The recommendations noted in the draft will aid our efforts for continuous
improvement in the cited areas of work control, security analysis, and feedback.

Although we offer no significant comments on the draft report, the attached UT-Battelle
letter (Attachment II) provides further clarification/amplification and corrective actions.
Additional information is also provided which counters the comment that the guest
researcher was not authorized to perform work at the Oak Ridge National Laboratory.
We agree, however, he was not authorized to perform work in the laboratory room
where the Inspector General (IG) hotline complaint originated.

We would like to reflect on the process under which this review was conducted. During
July 2003, an IG hotline call regarding use of this dead/non-viable anthrax protein
material was investigated by DOE-ORO and UT-Battelle personnel and communicated
to IG-Headquarters. All safety concerns related to the use of non-viable anthrax were
dismissed. During December 2003, a follow-up to the IG-0492 inspection of DOE
activities involving biological agents was initiated and Oak Ridge was one of three sites
visited. The IG hotline call information was reviewed again as part of this follow-on
review. It should be noted that no further feedback was received on that specific follow-
on review until we received the subject draft report in late December 2004, almost one
and one-half years after the original evaluation. The scope of the December 2004 report
appears to be distinctly different from the scope of the follow-on inspection or the
hotline investigation. A new scope should be required to follow the process as denoted
under Section 5.b. of DOE Order O 221.3.

In addition, we also find there were several instances in which the communication chain
for this review did not follow proper protocol as noted in DOE O 221.3. For example,
the IG requested information directly from the UT-Battelle contractor staff without
communicating with DOE. The contractor staff communicated to the IG without either
formal request from the IG or DOE’s involvement. When the December 2004 draft
report was received, it was provided directly to UT-Battelle without being properly



Page 12                                                       Management Comments
addressed to my office. These communication gaps amplified both confusion and
control of information very pertinent to proper inspection conduct. In the future, we
would respectfully request the IG follow well-established protocols that have stood the
test of time in ensuring accurate, complete, and thorough information is gathered and
reported. Overall, DOE-ORO and UT-Battelle concur with the IG recommendations
and the following actions we believe are commensurate with the concerns expressed by
the IG:

Recommendations: That the Manager, Oak Ridge Operations Office:

1. Ensure that ORNL continues efforts to strengthen its Laboratory Space
   Management Program to assure that only authorized researchers are
   conducting work at ORNL on assigned projects, and that the researchers
   comply with applicable laboratory policies and procedures. Response: Concur.
   UT-Battelle will continue to work to strengthen the Laboratory Space Manager
   program to assure that only authorized researchers are conducting work and the
   researchers are complying with applicable Laboratory policies and procedures. This
   activity will include using lessons learned from this event in its Laboratory Space
   Managers annual training. Expected completion date: March 31, 2005.

2. Ensure that ORNL, in accordance with the ORNL ISSM Core Function
   regarding the requirement to identify and analyze the safeguards and security
   risks/threats, conducts ISSM security reviews on all biological projects,
   including biological projects not regulated by CDC. Response: Concur. UT-
   Battelle will strengthen its security review of all projects through a modification of
   its work control process. An example result of this modification would be an
   automatic notification to the UT-Battelle Laboratory Protection Division and the
   UT-Battelle Institutional Biosafety Committee when select agents (dead or alive) are
   to be used in research work. Expected completion date: August 31, 2005

3. Ensure that ORNL, in accordance with the ORNL ISSM Core Function
   regarding feedback and continued safeguards and security improvement,
   consider notifying key ORNL personnel typically involved with biological
   projects of new and modified biological projects, including ones that are not
   regulated by CDC, to allow them an opportunity to provide input. Response:
   Concur. The results of the action of number 2 above will notify the appropriate
   personnel and allow them an opportunity to provide input as recommended by the
   IG. Expected completion date: August 31, 2005.

4. Determine whether a contract modification, such as an ISSM performance
   measure, should be included in the next revision of the UT-Battelle contract.
   Response: Concur. The UT-Battelle contract is currently under revision as a result
   of the contract extension. The DOE will determine the appropriate mechanism to
   incorporate the requirements of the ISSM policy as part of this process. Expected
   completion date: May 31, 2005.



Page 13                                                      Management Comments
                                                             IG Report No. DOE/IG-0681

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers’
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
                                               and cost
effective as possible. Therefore, this report will be available electronically through the Internet at
                                       the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                    http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
